OIG Investigative Reports, Former Georgia Education Official Pleads Guilty to Making False Statements to Federal Agents
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
January 20, 2005
U. S. Attorney's Office
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, Georgia 30303
Tel: 404-581-6000
Fax: 404-581-6181
Former Georgia Education Official Pleads Guilty to Making False Statements to Federal Agents
David E. Nahmias, United States Attorney for the Northern District of Georgia, announces that MILLER E. FINLEY, 64, of Evans, Georgia, entered a plea of guilty today before United States District Judge Clarence Cooper to a one count felony Criminal Information charging FINLEY with making false statements to federal agents. According to Nahmias:
The Information charges FINLEY with making false statements to Special Agents of the Federal Bureau of Investigation and the U.S. Department of Education, Office of the Inspector General, with regard to the circumstances under which then Georgia Superintendent of Schools Linda Schrenko caused checks totaling in excess of $500,000 to be issued by the Georgia Department of Education in July 2002 to companies controlled by A. Stephan Botes.
According to the documents and information presented in court, FINLEY was employed as a federal programs manager in 2002 with the Georgia Department of Education. FINLEY pleaded guilty today to having falsely stated to federal law enforcement agents during an interview that Georgia Department of Education checks totaling in excess of $500,000 were issued on July 24, 2002, in accordance with normal Department procedures, and that Schrenko became involved in the issuance of those checks only after political factors had delayed their issuance.  FINLEY now admits that those checks were issued at the explicit direction of Schrenko in a manner outside of standard Georgia Department of Education procedures.
Pursuant to his plea agreement, FINLEY has agreed to cooperate fully and truthfully with the government in the ongoing investigation.
United States Attorney David E. Nahmias said, "Today's guilty plea by Miller Finely is another step in an important case involving significant violations of the public's trust Federal law requires that citizens interviewed during criminal investigations tell the truth, or face prosecution for making false statements."
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell are prosecuting the case.
For further information please contact David E. Nahmias, United States Attorney  or F. Gentry Shelnutt, Chief, Criminal Division, through Patrick Crosby, Public Affairs Officer, U.S. Attorney's Office, at (404) 581-6016.  The Internet address for the HomePage for the U.S. Attorney's Office for the Northern District of Georgia is www.usdoj.gov/usao/gan.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov